           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
    MEASURE THE PERCENTAGE OF
     SOCIAL SECURITY NUMBERS
        ISSUED ACCURATELY

     June 2001    A-08-99-41003




 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                                  ."."       SBC&
                                                                             (j                      ~


                                                                       ~


                                                                       \I:               1IIIIII    ~~
                                                                                     ~IST1\.1'




                                                       SOCIAL                            SECURITY


                                                         Office of the Inspector                         General
MEMORANDUM

Date:      June       28,   2001                                                                                   Refer To:


To:        Larry G. Massanari
           Acting Commissioner
            of Social Security
From:
           Inspector General

           Performance Measure Review: Reliability of the Data Used to Measure                                                 the Percentage
Subject:
           of Social Security Numbers Issued Accurately (A-08-99-41 003)



           The Government Performance and Results Act (GPRA) of 19931 requires the Social
           Security Administration (SSA) to develop performance indicators that assess the
           relevant service levels and outcomes of each program activity. GPRA also calls for a
           description of the means employed to verify and validate the measured values used to
           report on program performance. SSA has stated the Office of the Inspector General
           (GIG) plays a vital role in evaluating the data used to measure performance. The
           objective of this audit was to determine the reliability of the data and the accuracy of the
           estimate SSA used in Fiscal Year (FY) 1998 for the following GPRA performance
           indicator.

                        Percent of Social Security numbers issued accurately:

                        Percent        without      error-      99.8

           BACKGROUND

           The Office of Quality Assurance and Performance Assessment (OQA), under the
           Deputy Commissioner for Finance, Assessment and Management, conducts reviews
           and special studies to evaluate and assess the integrity and quality of SSA's programs.
           One of OQA's quality assurance reviews is the annual Quality of the Enumeration
           Process Review. In conducting this Review, OQA continuously selects a sample of
           Social Security numbers (SSN) issued to determine the accuracy of the enumeration
           process. 2




           1 Public     Law   Number      103-62.


           2 Enumeration refers to the assignment of original SSNs and the issuance of replacement cards to those
           persons who request, and are entitled to, them.
Transactions that do not involve actual SSN applications―enumeration-at-birth (EAB)
and claims―are excluded from the sample selection.3 OQA electronically transmits a
list of the selected SSNs to the applicable field offices (FO). FO representatives then
fax the associated Form SS-5 (Application for a Social Security Card) to OQA. If the
Form is not available at the FO, OQA requests the Form from SSA’s records center.
According to the Enumeration Review Team Supervisor, historically, OQA has obtained
90 percent of the SS-5s from the FO.

When OQA receives an application, a technician in OQA’s Office of Statistics and
Special Area Studies verifies the SSN’s accuracy by running a query of the Alpha-Index
file and identifies incomplete/incorrect information in the electronic record of the
selected transaction (Numident) by comparing it to the matching application. 4 A
pictorial description of OQA’s end-of-line enumeration review can be found in
Appendix C of this report.

OQA’s review classifies incorrect enumeration actions as either critical or major errors,
defined as follows.

      Critical error - SSA issued multiple SSNs to the same individual or issued someone
      else’s SSN to the applicant.

      Major error - SSA issued the SSN accurately but made some type of error in the
      individual’s SSN record (Numident). Examples include omitting the applicant’s
      maiden name or entering the wrong birth date.

OQA reports the SSN accuracy rates annually in its Report on the Quality of the
Enumeration Process to SSA’s Deputy Commissioners for Disability and Income
Security Programs, Operations, and Systems. SSA also reports the accuracy rate in its
Annual Performance Plan (APP) as a benefit payment performance measure. 5

SSA’s goal, as stated in the FY 2001 APP, is to achieve a 99.8-percent SSN accuracy
rate. SSA has met or exceeded this goal since FY 1997.

RESULTS OF REVIEW
The data SSA used to report the FY 1998 SSN accuracy rate appeared to be
statistically reliable. However, we believe actual performance could be better reflected
if SSA implemented changes in the way it reports SSN errors. Specifically, we believe


3
    OQA reviewed the accuracy of the SSNs issued through the EAB process in another study.
4
 The Alpha-Index file contains identifying information on all SSN holders in alphabetical order and is
accessed by a person’s name and variations of the name rather than SSN.
5
    OQA’s review was based on a calendar year while the APP was based on a fiscal year.



                                                     2
SSA should disclose it did not consider all types of errors in the accuracy rate
computation.

Because SSA excluded relevant data from the SSN accuracy rate measure, it did not
follow GPRA and Office of Management and Budget (OMB) guidance on developing
APPs. GPRA calls for the establishment of “performance indicators (measures) to be
used in measuring or assessing the relevant outputs, service levels, and outcomes of
each program activity.”6 Additionally, OMB Circular A-11, Preparation and Submission
of Strategic Plans and Annual Performance Plans, part 2, states that APPs “should
neither capture the complete array of measures likely to be used in managing programs,
nor skimp on what is measured, resulting in a narrowly-drawn or fragmented picture of
performance.” We believe SSA’s method of measuring and reporting SSN accuracy
results in a narrowly drawn picture of performance.

THE DATA USED TO MEASURE SSN ACCURACY APPEAR RELIABLE

Based on our review of a sample of 105 of 2,301 OQA case files, verification of the
electronic SSN error file, and documentation of OQA’s end-of-line review process, the
FY 1998 SSN accuracy rate appears reliable. OQA’s error determination was correct
for 103 (98 percent) of the 105 cases we reviewed, including all of the critical errors.
Two (2 percent) of the cases contained major errors that SSA did not identify. Also,
OQA accurately entered the error data for 364 of the 368 records we verified. We did
not identify any significant internal control weaknesses in the end-of-line review
process, and we concluded OQA’s sampling methodology and projections were
statistically sound. However, we believe SSA could modify its sampling methodology to
better reflect the population of SSNs issued, as discussed in the Other Matters section
of this Report. Finally, we determined two computer programs key to OQA’s review—
one computes the SSN accuracy rate, and the other selects the Numidents for OQA’s
sample—produced valid results.

SSA DID NOT CONSIDER ALL TYPES OF SSN ERRORS WHEN CALCULATING
THE ERROR RATE

The SSN accuracy rate reported in the APP did not reflect all types of SSN errors.
Specifically, the Agency did not consider major errors and SSNs issued as a result of
false or improper evidentiary documents when calculating the accuracy rate. We
believe excluding these errors, without explicit disclosure of such exclusions, is
misleading as it implies almost perfect accuracy in SSN processing. In fact, in 1998,
208 (9 percent) of the 2,301 SSNs contained major errors. Additionally, other OIG
audits and investigations have noted significant problems with counterfeit documents




6
    Public Law 103-62, Section 1115(a)(4).



                                             3
being presented to fraudulently obtain SSNs.7 However, OQA did not attempt to identify
these occurrences when it conducted its review.

SSA Did Not Account For Major SSN Errors

Although OQA computed two error rates—one based on the number of critical errors
detected and another based on the number of major errors the Agency made in issuing
SSNs―SSA reported an SSN accuracy rate that only accounted for the number of
critical errors identified.8 Figure 1 illustrates SSA’s calculation.

                                   Figure 1: 1998 SSN Accuracy Rate




The Agency’s APP neither disclosed that major errors were not considered when
calculating the measure nor reported the rate of those errors. If the Agency had
included the 208 major errors, it would not have met its 1998 accuracy rate goal of
99.8 percent because the 1998 SSN accuracy rate, based on critical and major errors
combined, was 90.7 percent.9

The rate at which SSA generates major errors is problematic, as evidenced by the
9-percent major error rate in Calendar Year (CY) 1998 and the 11-percent major error
rate in CY 1997. The CY 1998 error rate projected to more than 1.1 million SSNs in the
universe.

We believe major errors should be considered in SSA’s accuracy rate calculation
because major errors can result in an additional or incorrect action in subsequent
enumeration transactions or claims actions. For example, if an applicant’s name was
recorded incorrectly during the SSN application process, subsequent earnings reported
7
  These audits and investigations are summarized in the following reports: Using Social Security Numbers
to Commit Fraud (A-08-99-42002), May 1999; and Procedures for Verifying Evidentiary Documents
Submitted with Original Social Security Number Applications (A-08-98-41009), September 2000.
8
    In 1998, OQA identified five critical errors.
9
    This calculation does not include the two additional major errors identified by OIG during this review.


                                                        4
for that person may not be properly credited. We believe inclusion of these errors or, at
a minimum, specific disclosure of the exclusion is necessary to provide a complete
picture of SSA’s SSN accuracy rate.

SSA Did Not Account For Improperly Assigned SSNs

OQA did not consider improperly assigned SSNs in the accuracy rate computation.
Improperly assigned SSNs are numbers SSA assigned based on invalid and/or
inappropriate evidentiary documents. Based on other OIG audits and investigations, we
learned that detecting counterfeit evidentiary documents can be problematic for SSA.
As a result, SSA sometimes assigns an SSN to individuals who should not have
received one. Since OQA did not attempt to identify these types of errors during its
enumeration review, we do not know whether the 1998 SSN accuracy rate would have
dropped if the Agency had included the errors in the accuracy rate computation. To
further complete the picture of SSN accuracy, we believe future OQA enumeration
reviews should identify improperly assigned SSNs, and the Agency should factor in
these errors or at least disclose that they are not included in the accuracy rate.

In examining the SSN applications included in the enumeration end-of-line review, OQA
ensured the evidence descriptions and coding were accurate and complete. However,
it did not determine whether the evidence submitted with SSN applications was valid.
The OQA technician told us she did not validate some types of evidence because she
could not physically examine the documents. Thus, she relied on the FO’s
determination of the evidence’s validity. We agree that OQA’s validation efforts will be
limited to certain types of evidentiary documents. However, the results of another OIG
review indicate these efforts are necessary to identify the improper assignment of
SSNs.10 In this review, we found that, from September 1, 1997 to February 28, 1998,
SSA issued at least 999 original SSNs based on invalid/inappropriate evidentiary
documents. The invalid documents included Immigration and Naturalization Service
forms and counterfeit U.S. birth certificates.

CONCLUSION AND RECOMMENDATION

Although the FY 1998 99.8-percent SSN accuracy rate was reliable, SSA did not
present a complete picture because it did not consider major errors and improperly
assigned SSNs when calculating the SSN accuracy rate. The limited information SSA
reports may mislead the public to believe SSA made virtually no errors when issuing
SSNs. In fact, SSA has generated at least 1 million major errors in SSN records
annually since 1997. In addition, in other OIG audits and investigations, we determined
that SSA sometimes issues SSNs based on invalid or improper evidence. We do not
know the impact of including improperly assigned SSNs in the accuracy rate
computation; however, the Agency would not have met its 1998 goal if it had included
major errors.

10
  Procedures for Verifying Evidentiary Documents Submitted with Original Social Security Number
Applications (A-08-98-41009).


                                                  5
To improve the reporting of future SSN accuracy rates, we recommend SSA include
major errors and improperly assigned SSNs when calculating future SSN accuracy
rates or include a statement in the APP that specifically discloses the exclusion of such
errors from the SSN accuracy rate measure.

AGENCY COMMENTS

SSA agreed with our recommendation. However, the Agency noted the correct volume
of SSN applications for FY 1998 was 1.7 million original applications and 10.7 million
replacement card applications. Hence, the simple random sample OQA selected
adequately reflects the population, and no correction to the sampling methodology is
necessary, as we suggested in the draft report. The complete text of SSA’s comments
is included in Appendix D.

OIG RESPONSE

Through discussion with an OQA manager, we determined that, during our audit, OQA
provided us an incorrect figure. Specifically, OQA informed us that, in FY 1998, SSA
issued 2.4 million original SSNs. However, in its response to this draft report, OQA
corrected that number to only 1.7 million original applications. As a result, we revised
the draft report to eliminate our concern that the SSN accuracy rate sample did not
represent the population.

OTHER MATTERS

SSA’S 1998 SSN ACCURACY RATE WAS PRIMARILY BASED ON A REVIEW OF
LOWER RISK APPLICATIONS

OQA’s sampling methodology for the 1998 Quality of the Enumeration Process Review
resulted in an examination of lower-risk transactions in almost 87 percent of the cases.
We believe SSA could improve its methodology by more fairly distributing the proportion
of low-and high-risk applications in the sample. The Agency could achieve this
improvement by increasing the number of original applications reviewed for SSN
accuracy.

We are concerned about the disproportionate distribution of the sample between
original and replacement cards. The Agency based its accuracy assessment primarily
on applications that have a lower error risk. In 1998, the sample included 303 original
applications and 1,998 replacement card applications. Thus, replacement card
applications represented 87 percent (1,998 out of 2,301) of the sample. However, only
20 percent of the critical errors OQA identified were related to applications for a
replacement card. We are not inferring that replacement cards are not vulnerable to
fraud. However, lower risk of error for a replacement card is inherent because this type
of transaction requires little manual data input. The field office representative does not
key in as much data for a replacement card because the system automatically


                                            6
completes many of the data fields with information it captures from the existing
computer record formed when an individual was originally assigned an SSN.

ADDITIONAL      ERROR INFORMATION            MAY BE CAPTURED IN FY 2002

If SSA approves a proposal submitted by its Enumeration and Systems Team, the
Agency would be able to measure the actual rate of wrong number cases reported by
individual SSN cardholders.11 SSA has developed new codes for the different number
requested field on the SS-5. These codes correspond to the reason the new SSN is
being assigned. One of the six reason codes is for wrong number cases. In addition,
SSA plans to add a new field to the Numident to reflect these codes. According to an
official of SSA's Enumeration and Systems Team in the Division of Eligibility and
Enumeration Policy, this upgrade will be implemented in the FY 2002 release of the
Modernized Enumeration System. OQA could obtain these data during future quality of
enumeration process reviews to provide SSA management with another indicator of its
performance in corr.ectly issuing SSNs.



                                                        James G. Huse, Jr.




11A wrong number situation is created when an individual is issued someone else's number.




                                                   "7
                                    Appendices
APPENDIX A – Scope and Methodology


APPENDIX B – Acronyms


APPENDIX C – Flow Chart of 1998 Enumeration Review


APPENDIX D – Agency Comments


APPENDIX E – OIG Contacts and Staff Acknowledgment

                                                                     Appendix A

Scope and Methodology
We reviewed the sample methodology and procedures employed in conducting the
Calendar Year (CY) 1998 enumeration process review to assess its reliability as a data
source for Social Security number (SSN) accuracy.

We tested and analyzed the Office of Quality Assurance and Performance
Assessment’s (OQA) methodology by fully examining a sample of cases included in the
CY 1998 enumeration end-of-line review. We randomly selected 100 cases free from
critical error from the CY 1998 Enumeration Quality Assurance System (EQAS), which
is the data base containing the results of the review of 2,301 cases. The data base is
designed to measure and report on the quality of various aspects of the enumeration
process. We verified the accuracy of the data in EQAS by comparing OQA’s data input
sheets to a printout from EQAS.

We verified all aspects of OQA’s desk reviews by following the procedures outlined by
the OQA staff. These procedures included obtaining an Alpha-Index query for each
sampled applicant. We determined whether the OQA case files contained all the
required forms, and all of the necessary documents were secured. We also reviewed
each OQA case file included in our sample to verify the results were recorded correctly
to EQAS.

From the universe of 2,301 cases, we also reviewed all 5 cases for which OQA reported
a critical error. According to the enumeration review team’s supervisor, OQA selected
2,414 cases for review. However, 113 of these cases were excluded. The excluded
cases included 104 that were generated from benefit claims transactions rather than
SSN applications, 7 mislocated SS-5s, and 2 late returns. The following chart provides
details of the 105 enumeration transactions we reviewed.




                                          A-1
              Office of the Inspector General Sample
                                                                Major and     Critical
    Region    Cases Original Duplicate On-Line Batch          Critical Errors Errors
Atlanta          15        2        13       8      7                       7       0
Boston            5        1         4       1      4                       0       0
Chicago          19        4        15      14      5                       2       0
Dallas           13        2        11       5      8                       6       1
Denver            6        1         5       2      4                       4       0
Kansas City       5        1         4       2      3                       0       0
New York         12        1        11       8      4                       6       2
Philadelphia      6        2         4       2      4                       1       0
San Francisco    16        4        12      13      3                       4       2
Seattle           8        2         6       4      4                       0       0
     Total      105       20        85      59     46                      30       5

To complete our review, we obtained and reviewed relevant sections of the Program
Operations Manual System. We also interviewed knowledgeable Social Security
Administration staff to gain an understanding of the enumeration process, the OQA data
base, the statistical methods used, and other relevant matters. In addition, for each
case finding noted in this report, we analyzed the OQA case file and all pertinent
documentation with OQA representatives and discussed the case findings with them.
The OQA staff concurred with our conclusions on each of these findings.

We conducted our work at the OQA office in Woodlawn, Maryland, and the Tuscaloosa,
Alabama, district office. The entity audited was the Deputy Commissioner for
Operations. We conducted audit field work from October 1999 to October 2000 in
accordance with generally accepted government auditing standards.




                                         A-2
                                                       Appendix B


Acronyms
 APP       Annual Performance Plan

 CY        Calendar Year

 EAB       Enumeration-at-Birth

 EQAS      Enumeration Quality Assurance System

 FO        Field Office

 FY        Fiscal Year

 GPRA      Government Performance and Results Act

 OIG       Office of the Inspector General

 OMB       Office of Management and Budget

 OQA       Office of Quality Assurance and Performance Assessment

 SSA       Social Security Administration

 SSN       Social Security Number

                                                                                                              Appendix C

Flow Chart of 1998 Enumeration Review

Control Clerk
                          Every 5000th                                             Prepare SS-5 Request
   Start                                                Sample
                           Numident                                                 List in Enumeration
                                                       Numidents
                           Accretion                                                 Quality Assurance
                                                                                      System (EQAS)



                                      Electronically Transmit                                         Numident #1
                                       To Field Office (FO)
     Give Disk to                                                        Receive SS-5
                                      for Copies of Selected                                          SS-5 #1
    Admin Message                                                        and Associate
                                              SS-5s
     Alert System                                                        with Numident                 Numident #2
        Person
                                                                                                            SS-5 #2




      Prepare Enumeration                Place Sample Items in Blocks
      Control Sample Log                 of 20 and Attach an                               Gives Sample
                                         Enumeration Data Input Form                          Units to                 1
      from SS-5s received
                                         (EDIF) to Each Block                              Technician for
                                                                                              Review
                                         Block 001 EDIF

                                         Block 001 Numidents

                                         Block 001 SS-5s
Technician (1)

                                                                                               SS-5

                                                                                               Completed EDIF
                              Compares                           Screens Alpha-Index
                            Numidents and                        System for Multiple           Notice to Correct
                              SS-5s for                          or Wrong Numbers              SSN Record (3278)
                            Discrepencies
                                                                                               Numident With Manually                2
                                                                                               Annotated Corrections


                                                                                                Other Supporting Documents

                                    No
                        Error?               2

                             Yes                           Manually Record                              Enter Error
                                                           Errors on the EDIF                          Codes in EQAS

Analyst (2)


                                   Give Accurately Completed Work
    10% Review of All                   to Control Clerk. Return                         Review EQAS for
                                   Discrepant Work to Technician for                      Accuracy and                 EQAS Computes
    Completed Work                                                                                                    SSN Accuracy Rate
    and 100% of 3278s                        Reconciliation                                Completeness
                   Appendix D


Agency Comments

MEMORANDUM


                                                                                                                       Refer To: S 11-3
           May      18,     2001



To:        James G. Ruse, Jr.
           Inspector General
                                                                  ~                      .

           Larry G. Massanari
           Acting Commissione                              cial       ecurity

           Office    of   the   Inspector        General          (OIG)     Draft   Report,   "Performance   Measure       Review:    Reliability
Subject:                                    \.
           of the Data Used t,o~easure                       the Percentage of Social Security Numbers Issued Accurately"
           (A-O8-99-4l003)-LtNFORMA
                              ,                                   TION                                                         I


           We appreciateOIG's efforts in conducting this review of the perfonnance indicator measuring
           the Agency's accuracy in issuing Social Security numbers (SSN). We are pleasedto note that
           OIG found the data for this perfonnance indicator to be reliable and the results of our calculations
           to be valid. As establishedand defined, the accuracyrate reported for this perfonnance measure
           is correct.

           Recommendation

           Include major errors (SSN issued accurately but contains sometype of error in the individual's
           SSN record; i.e., omitting the applicant's maiden name or entering the wrong birth date) and
           improperly assigned SSNs when calculating future SSN accuracy rates or include a statement
           in the Annual Performance Plan that specifically discloses the exclusion of such errors from
           the SSN accuracy rate measure.

           Comment

           We agreethat the definition of the measurein the Agency's perfonnanceplan shouldbe clarified
           to reflect that errors not affecting the accuracyof the issued.numbersare excluded from the
           accuracycalculation. We will make this clarification in the Revised Final Fiscal Year (FY) 2002
           Annual Perfonnance Plan (APP) and the FY 2003 APP to be issuedin February 2002. We will
           also include explanatory language in the FY 2001 Annual Perfonnance Report to be issued no
           later than March 2002.

           Other      Comments

           Upon further review of the data on the volume of original and replac~ent card applications for
           FY 1998 referenced in the report, we have found that the corre~t volume of SSN applications
for FY 1998 is 1.7 million original applications and 10.7 million replacement card applications.
Therefore, the percentage of original SSNs for FY 1998 was 13.7 percent, and the percentage for the
Agency’s sample was 13.2 percent. Hence, the simple random sample selected does reflect the
population, and no correction to the sampling methodology, as suggested in “Other Matters” or
Appendix D is necessary.

Please let us know if we may be of further assistance. Staff questions may be referred to
Dan Sweeney on extension 51957.
                                                                       Appendix E

Contacts and Staff Acknowledgments
OIG Contacts
      Kimberly A. Byrd, Acting Director, Operational Audits Division (205) 801-1605
      Reginia Grider, Senior Auditor (205) 801-1608

Acknowledgments
In addition to those named above:

      Ellen Justice, Auditor
   Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services
   Division


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-08-99-41003
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
